20-7841
No.

INAL
IN THE
SUPREME COURT OF THE UNITED STATES

Syl V \

1 M

FILED
ApR 1 9 2021
SiaSggg'ff

CkA\ Q C— PETITIONER

(Your Name)

\“1~€L

OmoJnta. vs.
HI q. s
cun cc Gp *n
pa,ny_ respondent(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

UpA'V^'cL SVccV^ CoujpV 6^-

For TKe INhnVVi Gpcim~V

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

S^ \v\c^ ~X j^\ cunor
(Your Name)

F. o. Sox (oO^
(Address)

HopleundL.CA
(City, State, Zip Code)

(7Q7l 7HH~ /3 67
(Phone Number)

*7

QUESTION(S) PRESENTED

The Defendant, (Respondent), life insurance company maintains that they are free
to choose a Date Of Accrual which is in flagrant violation of the contract.

The Plaintiff, (Petitioner), however, asserts that the terms and conditions of the
legally-binding contract dictate the Date Of Accrual.

The Question that I wish this Court to decide is :

What is the proper and legal Date Of Accrual in this case ?

LIST OF PARTIES

] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

No

Ps.eAix.VecL Cx-se. 5

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3)

STATEMENT OF THE CASE

H

REASONS FOR GRANTING THE WRIT

1

CONCLUSION

ll

INDEX TO APPENDICES

APPENDIX A
For Th e,

OF TKe. U* S. Couur'Y OF f\p^>ea_\S
Ni'm-Wv C'.rcuJiV
(OcVober l**' lOlO)

APPENDIX B

u.S. Di5-Vr\cV CouorV
ORDEK

G?r<xnVin^

NorVhern

MoF'ion To

D’l^r'vcV oF CaA'iforrn a.

DiSm'tS'D

APPENDIX C

MANDATE OF The <1n' C\rcua-V CoarV OF AffeoJS
^No Nje-Y^toe-r
2.0 2.o)

APPENDIX D

lAdror’ 5 MoViOO To Kecx^W The
^Doc-^e-Y E-rVrY No, 15)

MANDATE

OR.O&R of Tv%e ^ C'ircu.‘iV Co^V op
APPENDIX E
fAa-WoC’b NVoVvorv To KeoxU The N\o-r%A.cc'Ve <xn<L
OeccAV’trv« For F\\>r^ ?e.YiY.on For Rehear*
December \5rK
“•* Xhc
APPENDIX F

T V\ e N\ A VW C'iD E N T A\_
o F /Acxoor ’s ?^V*»V*voa For Rehear 3
(IT c*- y\ v^. c*-r y

2-°l*

^0^*0

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES

none.

STATUTES AND RULES

C,a.\\ £ortY\cb GocLe. O-f

C.W1 \ Vroce.ctuure,
Sec¥\on 337
Four - Fear
'FVa--"fu'Ye of L\m\ VcuhonS
For br ea-ch
of (X 3f/r\'We.n Con-Vra.c.'F
OTHER

fa-a, e.
fW-je
<a_»u cL

7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

fs/ For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A— to
the petition and is
[ ] reported at
; or,
[ 1 has been designated for publication but is not yet reported; or,
[V| is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

__to

[ ] reported at
; or,
[ 1 has been designated for publication but is not yet reported; or,
is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was OcA-ftV»e»r 2.*?. xoz.o
[ ] No petition for rehearing was timely filed in my case.
[>/| A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
y 27, toil_ , and a copy of the
order denying rehearing appears at Appendix _E__
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including______
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
TKe
C/\
ORDERED
g,c>-cb \, i A C.

Co^rV Of
O e c. e-mber
For

E '\ \ i

I5*K 2.02.0

or

eo-r \ r\<^

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
to and including____
(date) on
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

P. 2-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

No
Prew\ 'oTLnvolvccL

lb

STATEMENT OF THE CASE

In April 1998, the Plaintiff, (Petitioner), Sylvia J. Manor, purchased from
the Defendant, (Respondent), United of Omaha Life Insurance Company, a
life insurance policy insuring the life of Plaintiff's husband.

The policy contract clearly stated that the life insurance policy would
remain in force so long as the policyholder timely paid all premiums due.
The plaintiff policyholder upheld her duties under the terms of the
legally-binding contract.

The plaintiff policyholder never failed to timely

pay any premiums due.

The problem arose in January 2012.

In January 2012, Plaintiff

policyholder timely paid her premium due.

The Defendant, (Respondent),

received the premium, cashed the check, and kept the money.

The Defendant insurance company then sent a letter to the plaintiff
policyholder stating that her policy had been cancelled due to nonpayment
of premium.

The Plaintiff Policyholder responded immediately.

P.H

The Plaintiff policyholder made many phone calls to the Defendant insurance company.
The Plaintiff policyholder spent many months trying to get the Defendant to correct its
mistake.

The numerous phone calls and letters from the Plaintiff policyholder to the

Defendant had no effect on the Defendant‘s unyielding position.
The Defendant continued to state :
“ Policy cancelled due to nonpayment of premiums. “

The Defendant insurance company prevented Plaintiff policyholder from performing her
obligations under the contract.

According to the legally-binding insurance contract

signed by both parties in 1998, the policyholder had only one obligation to perform
That obligation was the timely payment of all

in order to keep the policy in force.
premiums due.

Each time that Plaintiff policyholder would try to pay her premiums,

Defendant would send her check back to her along with the statement:
“ Policy cancelled due to nonpayment of premium “
Through no fault of her own, Plaintiff policyholder was prevented by Defendant from
continuing to perform her duties under the contract.

According to the terms and conditions of the legally-binding insurance contract,
the policy will remain in force until

The policyholder fails to timely pay premiums due
OR
The death of the insured

f. ‘D

The policyholder did not fail to timely pay premiums due.
In this case, it was the death of the insured in October 2015 which terminated the
policy.

In October 2015, the insured died.

Shortly thereafter, the Plaintiff policyholder

filed a claim for death benefits.
The Defendant insurance company denied the claim stating :
“ Policy cancelled due to nonpayment of premiums. “

In March 2019, the Plaintiff policyholder filed an unlimited civil action against
United Of Omaha Life Insurance Company in the Superior Court of California in and for
the County of Mendocino.

In this civil action, Plaintiff policyholder alleged

Breach of Contract, Bad Faith, four tort causes of action, and a request for punitive
damages.

Thirty days later, the Defendant insurance company removed the case

to Federal court.

The case was heard in the United States District Court, Northern District of California,
San Francisco Division.

The District Court dismissed the Plaintiff policyholder's case.

The District Court said that Plaintiff‘s case was barred by the statute of limitations for
breach of a written contract, which is four years,
California Code of Civil Procedure, Section 337 (a).

The Plaintiff policyholder then appealed to the United States Court of Appeals
For The Ninth Circuit.

?.fc

The 9th Circuit denied Plaintiff's appeal stating that Plaintiff's case was barred by
the statute of limitations for breach of a written contract which is four years,
California Code of Civil Procedure, Section 337 (a).

The aforementioned summary of the case brings us to this current
Petition for Writ of Certiorari.

I am asking this U.S. Supreme Court to grant my

request for Writ of Certiorari because the two lower Courts erred.

Neither the

U.S. District Court nor the 9th Circuit Court addressed the essential issue of the
Date Of Accrual.

Both of these Courts simply dismissed my two contract

causes of action by stating :

“ The statute of limitations for breach
of a written contract is four years,
California Code of Civil Procedure, Section 337 (a). “

The California Code of Civil Procedure, Section 337 (a) is not in dispute.
I agree that there is a four-year statute of limitations for breach of a written contract.
I have made my position on this point perfectly clear to the Courts in all of my court
filings.

Both the District Court and the 9th Circuit Court agree that CCP 337 (a)

imposes a four-year statute of limitations.

Both the Plaintiff and the Defendant agree

with the four-year limitation of CCP 337 (a).

The Courts and the parties in this case are all in perfect agreement on this point.
The point of disagreement arises in the Date of Accrual.

P.7

I asked both of the lower Courts to examine and acknowledge my Date of Accrual.
The Date of Accrual which I put forth' in this case,

is the only date which complies

with the legally-binding contract signed by both parties.

According to the legally-binding insurance contract signed by both policyholder and
insurer, the October 2015 death of the insured is the only date of accrual which is
contractually and legally applicable.

This Date of Accrual and the supporting documentation which I presented to the Courts
clearly demonstrate that my two contract causes of action complied with the
four-year statute of limitation of CCP 337 (a).

If this Court should grant my request for Writ of Certiorari, then you will have all
of the court records from the two lower Courts.

I respectfully request that you please read all of my court filings which clearly
prove that my contract causes of action were timely filed.

REASONS FOR GRANTING THE PETITION

I respectfully request that this Court grant my request for Writ of Certiorari
not just for my own personal benefit, but for the benefit of other policyholders
who are similarly situated.

The decisions made by the lower Courts in this case have given all life insurance
companies an illegal, unethical, and immoral strategy which they can continue to use
to evade the payment of benefits which they are contractually obligated to pay.

The strategy used by this defendant life insurance company is really quite simple.
It is the simplicity of this scheme which makes it so easy for the insurance company
to perpetrate.

First, the life insurance company enters into a legally-binding contract with the
policyholder.

The contract unequivocally states that the policy can only be terminated

by the policyholder's failure to pay premiums due.

Next, the life insurance company spends decades collecting hundreds of thousands
of dollars in premiums from the policyholder.

Then the insurance company targets insureds who suffer heart attacks, cancer, or
other life-threatening conditions.

P. °l

Shortly after the insured is released from the hospital, the life insurance company faces
two options.

In this case, The Defendant, United of Omaha, faced the 2 options:

OPTION ONE-They could wait for the insured to die soon and
pay his widow the 2 million-dollar death benefit.

OR

OPTION TWO--

They could maximize their profits by simply “Writing A Letter" to relieve
themselves of their contractual obligation to pay the impending claim.

United of Omaha chose option #2.

United of Omaha now admits that this letter was

based upon the “ mistaken belief “

that premiums were unpaid.

If this Court should uphold United of Omaha‘s
contract by using the “ write-a-letter” scheme,

“right” to amend the legally-binding
then ALL insurance companies

will disregard their contractual obligations and simply “ write-a-letter “
faced with unprofitable situations.

P. io

when

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted, S y \\j\Cu

Date:

Aorl! // , ZQ3-!

p. w

/A <xr\Or

